<html>
<title> - THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-980]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-980

 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2010
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                  U.S. GOVERNMENT PRINTING OFFICE
51-026 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
                    Beth M. Grossman, Senior Counsel
            Christian J. Beckner, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director of Homeland Security Affairs
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk








                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Bennet...............................................    10
    Senator McCain...............................................    12
    Senator Landrieu.............................................    14
    senator Carper...............................................    16
    Senator McCaskill............................................    20
    Senator Akaka................................................    22
Prepared statements:
    Senator Lieberman............................................    31
    Senator Collins..............................................    33

                                WITNESS
                         Tuesday, May 12, 2009

Hon. Janet A. Napolitano, Secretary, U.S. Department of Homeland 
  Security:
    Testimony....................................................     5
    Prepared statement...........................................    35
    Responses to post-hearing questions for the Record...........    51
``Budget-in-Brief, Fiscal Year 2010,'' U.S. Department of 
  Homeland Security..............................................    70

 
                   THE HOMELAND SECURITY DEPARTMENT'S
                 BUDGET SUBMISSION FOR FISCAL YEAR 2010

                              ----------                              


                         TUESDAY, MAY 12, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 4:02 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Pryor, 
Landrieu, McCaskill, Bennet, Collins, and McCain.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good afternoon, Secretary Napolitano, 
ladies and gentlemen. This may be the latest in the day, 
Senator Collins, that you and I have begun a hearing. Is that 
possible?
    Senator Collins. I think it is.
    Chairman Lieberman. So, once again, a first for the three 
of us. The explanation of this is much too long and definitely 
not worth telling.
    Anyway, I want to welcome you, Madam Secretary, to this, 
your first budget hearing before our Committee as the Secretary 
of the Department of Homeland Security (DHS). A budget, of 
course, as you know from your previous work as governor, is 
more than just a collection of numbers. Each line of the budget 
is in some sense a vision of what we expect from our government 
now and into the future.
    I know that you and we on this Committee share a similar 
vision of what we expect for the Department of Homeland 
Security, which is that it become an organization that is 
simply the best in the world at detecting, deterring, preparing 
for, and responding to disasters, natural and manmade, 
including terrorism and the threat posed by drug cartels--``One 
DHS'' whose components work together to keep the American 
people safe.
    With those expectations in mind, I would say that there is 
a lot in President Obama's proposed 2010 budget for the 
Department of Homeland Security that is good news. One of the 
more interesting discussions that we may have today or may 
occur is exactly how much does President Obama's budget 
increase Department of Homeland Security spending. I have heard 
at least three different numbers, based, I gather, as I 
understand it, on which baseline you use. But, in any case, 
there is a percentage increase in spending recommended by the 
President. In times of economic stress and high deficits, 
obviously, we have to make priority decisions, and therefore, I 
take the increase that the President has recommended as a 
testament to this Administration's commitment to the 
Department's critical mission of keeping our homeland safe.
    I want to point out a few areas in which I was particularly 
pleased by increases recommended and then some others where I 
am concerned.
    I welcome the Administration's $87 million increase in the 
Department's National Cyber Security Division account. As we 
have discussed and heard testimony here, key information 
systems in the private and public sectors are attacked every 
day, and it is critical that we, therefore, beef up our 
defenses against computer attacks and data theft. This 
additional money will obviously help that to occur.
    I am also encouraged that the President's budget recognizes 
in a new way the threat on our borders posed by drugs, weapons, 
cash, and human smuggling by including an increase of $135 
million for the Southwest Border Initiative, but I know you 
will not be surprised to hear that I do not think that is 
enough.
    I am particularly concerned that there is not enough new 
support being directed to inspections of southbound traffic to 
disrupt the flow of illicit guns and cash that the drug cartels 
use to wage war against each other and too frequently against 
the Mexican government.
    Senator Collins and I introduced, and the Senate passed, an 
amendment to the budget resolution a short while ago for the 
next fiscal year that added $500 million for security at the 
Southwest border, so we will continue to work in this budget 
process to add more money for that purpose.
    I am also glad to see increased support for areas of the 
Department that are really not high profile but matter a lot, 
and that goes particularly to management and integration of 
different sections of the Department.
    The Administration has, for instance, proposed an 
additional $32 million for the Office of Procurement. That 
should help to reduce the all-too-frequent cost and schedule 
overruns that have occurred over the years in major Department 
of Homeland Security acquisition programs.
    The Administration's decision to double the funding for 
grants under the Staffing for Adequate Fire and Emergency 
Response (SAFER) Act, which enables fire departments across 
America to hire new firefighters, from $210 million to $420 
million for fiscal year 2010 is really a big step forward. I 
appreciate it, and I know the fire departments and citizenry 
around the country will appreciate it as well.
    Unfortunately, the Administration has also proposed deep 
cuts in funds for the Assistance to Firefighter Grant Program, 
commonly known around here as ``fire grants,'' which assist 
local departments particularly in purchasing equipment that is 
essential for them to perform their jobs safely and 
effectively. Frankly, I am at a loss to understand why the 
Administration not only proposed cutting this critical support 
for first responders, but proposed cutting it by nearly 70 
percent, from $565 million this year to only $170 million next 
year.
    I would like during the questions and answers to discuss 
the Federal Emergency Management Agency (FEMA) budget, which 
seems to be only a nominal increase and less than I believe 
will be necessary, and also the Coast Guard budget. The Coast 
Guard is really stretched thin today, responsible for carrying 
out a wide range of both its traditional missions and all the 
new missions associated with homeland security, such as port 
security.
    Personally, I believe that an increase in the base force of 
the Coast Guard is necessary, but the budget request 
anticipates actually a slight decline in the military workforce 
of the Coast Guard, and I want to discuss that with you as 
well.
    So, bottom line, I appreciate the difficult decisions that 
must be made in every budget cycle overall. I think the 
Department's budget will keep DHS moving forward. But I also 
think we can and must do more than that.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. Welcome, Madam 
Secretary, to the Committee for your first budget hearing.
    More than 6 years after its creation, the Department of 
Homeland Security has achieved considerable progress, but we 
also know from this Committee's oversight work and from 
Government Accountability Office (GAO) and Inspector General 
(IG) reports that much more needs to be done to integrate, 
improve, and strengthen the Department, and that requires 
adequate resources. With our security at stake, the 
Department's mission of prevention, preparedness, response, and 
recovery must be executed effectively.
    As our Nation confronts the challenges of terrorism, 
natural disasters, and emerging threats, such as cyber attacks 
and drug cartel violence, I am disappointed that the 
Administration's fiscal year 2010 budget provides only a slight 
overall increase in homeland security funding for DHS. With the 
additional cuts proposed by the Administration for the next 4 
years, the Department may be hard pressed to carry out its 
vital missions, no matter how hard the Secretary and the 
employees of the Department work to achieve them.
    For example, as the Chairman has indicated, critical 
resources, additional resources are needed to supplement 
efforts already underway on our Southwest border to combat 
drug, gun, and cash smuggling by the drug cartels in Mexico. As 
the Chairman indicated, he and I included $550 million for 
additional resources to fight the Mexican drug cartels in the 
recently passed budget resolution, and I would note that our 
amendment was adopted without any dissenting votes. This is 
significantly more than the President's budget proposes.
    For example, our budget amendment would provide $260 
million to hire and train 1,600 U.S. Customs and Border 
Protection (CBP) officers and 400 canine teams. These agents 
and dogs would help combat the cartels' southbound smuggling of 
guns and cash into Mexico. Unfortunately, the Administration 
has proposed only 65 additional CBP officers for this purpose. 
As the Chairman has pointed out, when you look at this segment 
of the President's budget compared to the Lieberman-Collins 
floor amendment, the difference is 90 percent less in the 
Administration's budget.
    I am concerned that the President's proposed budget could 
also undermine our State and local partners who are often the 
first to respond to natural disasters and terrorist threats. 
While I applaud the funding proposed for our homeland security 
grant programs, proposed cuts to the Fire Act and the port 
security grant programs could well deprive first responders and 
local communities of the resources needed to secure our Nation.
    Under the Administration's proposal, as the Chairman has 
pointed out, Fire Act grants would be cut by 70 percent. They 
would be slashed. And this is one of the programs that first 
responders tell me over and over again is the most effective, 
has the best return on the dollar, and has the least 
bureaucracy associated with it. It is a peer-reviewed program. 
The dollars are efficiently and effectively spent, and they 
reach the first responder. This funding deficit could have 
serious consequences for ensuring that our Nation's 
firefighters get the equipment and the training that they need.
    The President's budget also proposes to eliminate funding 
for the Long Range Aids to Navigation (LORAN) program. This 
program serves as a back-up to the Global Positioning System 
(GPS). The Federal Government has already invested $160 million 
in modernizing LORAN. Discontinuing the entire program would 
leave the Nation without a back-up to GPS, wasting millions 
already spent on the system. And, indeed, as I will discuss 
later with the Secretary, the cost of closing out the LORAN 
program may well approximate or even exceed the cost of 
upgrading the program, and it leaves us without a critical 
back-up to GPS.
    There is, however, some good news in the budget. It is 
encouraging that the Administration recognizes the need to 
increase funding for cyber security, bombing prevention, and 
technological advancements along the Northern border. An 
effective response to cyber threats will require coordination 
among several government agencies, law enforcement, and the 
private sector. The additional funding requested in the budget 
will help DHS assume the leadership position needed on cyber 
security matters.
    I also applaud the Administration's proposals to increase 
staffing and resources for the offices of Civil Rights and 
Civil Liberties, the Chief Procurement Officer, and the 
Inspector General. In particular, let me applaud the addition 
of almost 100 procurement personnel. Far too often, departments 
short-change the acquisition workforce even though 
understaffing in that area can compromise the ability of the 
Department to carry out a host of missions and mandates. So I 
applaud the Secretary for realizing how important it is that 
there is a sufficient number of acquisition specialists to 
ensure that the $14 billion spent annually by DHS on contracts 
is invested wisely and the programs are properly overseen.
    At a time when budgets are tight, difficult decisions must 
be made. We cannot, however, underfund our Nation's homeland 
security. So I associate myself with the comments made by the 
Chairman. In fact, I think it is remarkable how similar our 
concerns are once again. You would think we had compared notes 
on our opening statements.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins. I did note 
the similarity in the parts of the budget that we commented on, 
but I did note a really interesting difference, which is that I 
started with the parts that I was----
    Senator Collins. Happy about.
    Chairman Lieberman [continuing]. Happy with and ended with 
the bad news. You started with the bad news and ended with the 
good news.
    Senator Collins. And do you know what? In the previous 
Administration, it was exactly the other way. [Laughter.]
    I find that to be a remarkable coincidence. But, as usual, 
Mr. Chairman, our bottom line is the same.
    Chairman Lieberman. Exactly.
    Senator Collins. You add up the positives and the 
negatives, and we end up at the same place.
    Chairman Lieberman. All right. Are we entertaining you more 
than they did in the House today?
    Secretary Napolitano. Absolutely.
    Chairman Lieberman. Madam Secretary, welcome, and we would 
be glad to hear from you with an opening statement at this 
time.

   TESTIMONY OF HON. JANET A. NAPOLITANO,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Thank you, Mr. Chairman, and I have a 
more complete statement for inclusion in the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Napolitano appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    Chairman Lieberman, Senator Collins, Members of the 
Committee, thank you for the opportunity to testify on the 
Department of Homeland Security portion of President Obama's 
budget proposal for fiscal year 2010. The proposed total budget 
for DHS is $55.1 billion, which includes $42.7 billion in 
appropriated funding. DHS performs a broad range of activities 
across a single driving mission: To secure America from the 
entire range of threats that we face. The Department's 
leadership in the past couple of weeks in response to the H1N1 
flu outbreak only proves the breadth of this Department's 
portfolio as well as the need to make DHS a stronger, more 
effective Department.
    This budget strengthens our efforts in what I see as the 
five main mission areas where we need to focus in order to 
secure the American people.
    First, guarding against terrorism--the founding purpose and 
perennial top priority of the Department.
    Second, securing our borders--an effort even more urgent as 
the United States looks to do its part to counter a rise in 
cartel violence.
    Third, smart and effective enforcement of our immigration 
laws--facilitate legal immigration and pursue enforcement 
against those who violate the Nation's immigration law.
    Fourth, improving our preparation for, response to, and 
recovery from disasters--not just hurricanes, tornadoes, fires, 
and earthquakes, but also unexpected situations like the H1N1 
flu.
    And, fifth, unifying the Department of Homeland Security--
needing to work together as one department, One DHS, to ensure 
that we operate at full strength.
    There are three cross-cutting approaches that the 
Department is taking to strengthen its performance in each of 
these five areas and that are also strengthened in this budget.
    First, expanding partnerships with State, local, and Tribal 
governments--the first detectors and the first responders.
    Second, bolstering our science and technology portfolio, 
investing in new technologies that can increase our 
capabilities--fully cognizant of our efforts also to protect 
privacy and the individual rights.
    And third, maximizing efficiency--through an Efficiency 
Review Initiative that we launched in March to ensure that 
every security dollar is spent in its most effective way.
    This budget adheres to the President's major reform goals--
government efficiency, transparency, and cohesion--and will 
play a major part in bringing about a new culture of 
responsibility and fiscal discipline at DHS. The DHS budget 
request was based on alignment with the Department priorities, 
and programs were assessed based on effectiveness and on risk.
    In terms of budget priorities, to guard against terrorism, 
the budget proposal includes: $121 million to fund research for 
new technologies that detect explosives in public places and 
transportation networks; $87 million for new measures to 
protect critical infrastructure and cyber networks from attack; 
and systems to enhance information sharing among Federal, 
State, local, and Tribal law enforcement.
    For border security, this budget proposal includes $116 
million to deploy additional staff and technology to the 
Southwest border to disrupt southbound smuggling of drugs and 
cash and to help combat cartel violence; $40 million for smart 
security technology funding on the Northern border to expand 
and integrate surveillance systems.
    To ensure smart, effective enforcement of our immigration 
laws, this budget proposal includes: $112 million to strengthen 
E-Verify to help employers maintain a legal workforce; a total 
of $198 million for the Secure Communities program, which helps 
State, local, and Tribal law enforcement target criminal 
aliens; and it improves security and facilitates trade and 
tourism through $145 million for the Western Hemisphere Travel 
Initiative (WHTI) and $344 million for U.S. Visitor and 
Immigrant Status Indicator Technology (US-VISIT).
    To help Americans prepare for, respond to, and recover from 
natural disaster, the budget proposal includes: Doubling of the 
funds from $210 million to $420 million to increase the number 
of front-line firefighters; a $600 million increase to the 
Disaster Relief Fund to help individuals and communities 
affected by disasters; and it strengthens pre-disaster hazard 
mitigation efforts to reduce injury, loss of life, and 
destruction of property.
    To unify the Department, this budget proposal includes $79 
million for the consolidation of DHS headquarters, which will 
bring 35 disparate offices together, generating significant 
savings in the long run. It also includes $200 million to 
consolidate and unify our information technology (IT) 
infrastructure and bring all of DHS under the same system--One 
DHS.
    In my few months as Secretary, I have seen a number of 
remarkable accomplishments in addition to challenges. I have 
seen this Department's potential, and I believe we have a path 
toward realizing it. DHS is aiming to do even better at 
achieving our security mission. This budget will help the 
Department do just that.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Madam Secretary. We 
are off to a good start. I think we will do 7-minute rounds of 
questions.
    As I noted in my opening statement, I was encouraged to see 
an increase in the budget for fiscal year 2010. I was surprised 
at the same time to notice that the updated summary tables that 
the Office of Management and Budget released this week shows 
the Department's discretionary budget decreasing in fiscal year 
2011 from $42.7 billion to $42 billion, and then it would 
continue to decrease $400 to $500 million every year for the 
next 3 years. Obviously, the Administration submits a 5-year 
plan.
    I am concerned about that long-term budget projection 
because I expect that the needs of the Department will 
increase, not decrease, and I wonder if you have any 
explanation for that.
    Secretary Napolitano. Mr. Chairman, two points. One is part 
of that decrease is not a real decrease because the expectation 
is that there will be fee increases that help fill that gap. 
But, second, I think the charge from President Obama to his 
Cabinet has been to carry out our missions and to find ways 
that we can avoid costs and achieve savings while accomplishing 
the myriad missions that we have. That is why we have 
instituted an efficiency review process, which I believe will 
help us find millions in cost avoidances without affecting 
mission accomplishment.
    Chairman Lieberman. Well, obviously we wish you well as you 
try to do all the things that the law and we ask you to do. If 
you can do it more efficiently, that is great. But we will 
watch that, and we will monitor that. That is part of our 
responsibility, to make sure we are not diminishing the 
effectiveness of the Department because we are not funding it 
enough.
    What kind of fees are we contemplating increasing?
    Secretary Napolitano. Well, there would be two. One is in 
the Transportation and Security Administration (TSA) realm, and 
the other will be at the end of this year with another look at 
the fees charged through Citizenship and Immigration Services. 
Those are two areas that I can identify that we will be looking 
at.
    Chairman Lieberman. We will keep talking to you about that.
    In the budget process, no department head gets everything 
he or she wants. In our work--several of us are on the Armed 
Services Committee--the services in the Department of Defense 
have come up with an interesting device that they actually 
submit to the committees of Congress called their ``unfunded 
priority list.'' It is pretty interesting, and often the 
Committee gives them some of those and maybe takes out some 
other stuff.
    If I had to ask you what your top unfunded priority was in 
this budget, what would you say?
    Secretary Napolitano. Well, Mr. Chairman, I think that the 
budget reflects a good balance of what the Department needs 
moving forward, at least in the first full year of my term as 
Secretary. That being said, I think there are a few items that 
we are going to continue to look at because they are works in 
progress. One would be the capitalization of the Coast Guard, 
for example, where there have been issues in the past about 
procurement, procurement efficiencies, and the like. We want to 
make sure that those problems have been absolutely corrected 
and good program management is in place. But those will be some 
areas that we may want to be looking for in future years.
    Chairman Lieberman. That is helpful, and we will continue 
to work with you, maybe even this year.
    Let me ask about the fire grants. This is a very unusual 
situation because the SAFER program, which helps local 
departments hire more firefighters, really has been increased 
quite significantly, and I support that. The fire grants--which 
can be used for training, but they are mostly used for purchase 
of equipment by the fire departments that they would otherwise 
not be able to afford--are cut, as we have said, 70 percent. 
Why the cut?
    Secretary Napolitano. Mr. Chairman, a couple of things. One 
is that there was money in the Stimulus package for the fire 
grants, and so we took that into account.
    Second, over the past years, this Congress has funded the 
fire grants basically at a 2:1 ratio compared to the SAFER 
grants. In a way, we went the reverse this year, in part 
because fire departments were telling us that in a time where 
localities were having to cut back on personnel, they felt that 
their No. 1 priority was to have the firefighters wear the 
equipment and to drive the trucks. And, therefore, there was a 
change in emphasis for that reason as well.
    So the fact that we already had money through the Stimulus 
bill, the fact that this part of firefighting support had been 
heavily funded over the last years, and the need to actually 
meet personnel costs now because of the economic situation 
around the country underlies the request.
    Chairman Lieberman. I want to ask you to take another look 
at the Recovery Act because I believe the funding in that act 
for the fire departments was for construction and renovation of 
the fire department buildings, not for the purchase of 
equipment, which the fire grants allow them to do. So I think 
that does not make it up.
    I understand the pressure on the local fire departments in 
terms of personnel, but it is also great in terms of equipment 
running out because the budgets of all the fire departments are 
so personnel intensive that a lot of them end up operating 
equipment that is way too old and actually below some of the 
national standards that they have.
    My guess is there is going to be a lot of interest in these 
two programs. I suppose in a sense we have stepped forward from 
where we tended to be too often under the previous 
Administration, which is that both fire grants and SAFER grants 
were cut, and then Members of Congress came along and restored 
the funding to both of them because there is a lot of support 
for this.
    My time is up. I thank you, and I will yield now to Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Madam Secretary, the National Security Presidential 
Directive 66 established new guidance for the Arctic Region, 
and the directive points out that the United States has ``broad 
and fundamental national security interests'' in the Arctic, 
and it calls on the United States to ``assert a more active and 
influential national presence to protect its Arctic interests 
and to project sea power throughout the region.''
    Unfortunately, however, the Coast Guard is in danger of 
losing its polar icebreaking capacity. Both of the Coast 
Guard's heavy polar icebreakers are nearing the end of their 
service lives. One of the two, Polar Star, is actually not 
operational. It is tied up at a port in Seattle right now. And 
yet the President's proposed budget would provide no funding 
for polar icebreakers. More than just trying to reactivate the 
33-year-old Polar Star, the Coast Guard really needs to move 
ahead immediately with the acquisition of two new polar 
icebreakers.
    When Senator McCain and I visited Antarctica in 2006, this 
was an issue that the National Science Foundation raised with 
us as well. These two icebreakers are estimated to cost between 
$1.6 to $2 billion, and they will take 8 to 10 years to 
complete.
    Why is there not any funding at all to start replacing 
these two icebreakers when we know this need is acute?
    Secretary Napolitano. Thank you, Senator. In the last 
fiscal year, money was moved from the National Science 
Foundation to the Coast Guard for the polar function, and there 
is money in the pipeline there. And then I believe Congress 
added another $33 million for the renovation of either the 
Polar Star or the Polar Sea, one of the two. So that work is 
underway now.
    It was our judgment that for this fiscal year that is the 
work that should be completed as we really look at a longer-
term investment on the polar side for the Coast Guard. So the 
decision was made that in this year, where budgets are tight 
and we have to prioritize, the funding for new Polar Star ice 
capacity would not be requested.
    Senator Collins. The problem is that the Coast Guard still 
requires about $32 million to complete the reactivation. The 
appropriations bill for DHS for this fiscal year has about $30 
million, but that is only about half as much as needed. It 
seems to me we at least need to fund the reactivation of the 
Polar Star. It is going to take 2 to 3 years to do that 
overhaul to extend the life of the Polar Star for perhaps 7 to 
10 more years at most.
    So I would hope you would work with us. If we cannot afford 
to start on the acquisition of two new Polar Star equivalents, 
which I think we need to do, we at least need to provide the 
$32.5 million to complete the reactivation of the Polar Star. 
And I would hope that you would work with us to try to identify 
that funding, at least.
    Secretary Napolitano. We would be happy to work with you.
    Senator Collins. Thank you.
    Let me turn to another issue that concerns me. Last 
December, our Committee heard testimony from the Commission on 
the Prevention of Weapons of Mass Destruction Proliferation and 
Terrorism (WMD Commission) that was headed by our two former 
colleagues, Senator Graham and Senator Talent. The WMD 
Commission estimated the probability of a WMD attack somewhere 
in the world by the year 2013 as better than 50 percent, and 
they found the greatest threat to be posed by biological 
terrorism and criticized the efforts in our government to do 
enough.
    In view of this bipartisan, unanimous Commission's finding, 
I am surprised that the President's budget request would cut 
the Office of Health Affairs by 12 percent compared to last 
year, and in particular, the vast majority of the cut is to the 
BioWatch program.
    This program is designed to refine technologies so that 
local and State governments can be alerted when a biological 
agent is found in a public place. I understand there has been 
some problems with the technology in New York City, but it 
seems to me that since DHS is continuing to work on a third-
generation technology, we should not be cutting the funding for 
this area.
    Could you please explain why, given the findings of the WMD 
Commission, the Administration is proposing to cut this 
important aspect of our defense against biological agents?
    Secretary Napolitano. Well, Senator, you are right. The 
defense against biological WMD is a key component of our future 
and our existing mission right now, but a couple of points.
    One is we should not be asking for money when we are not 
satisfied that what we are buying actually works and works in 
the way that it was intended, and there have been problems with 
the technology that was being purchased.
    And second, because there have been problems, there is a 
back-up of unspent funds, and so rather than ask for new money, 
we continue to work on the next generation, which will be a 
more autonomous BioWatch--as opposed to requiring a lot of 
manpower--system. That is where we want to get to. But our view 
is that we can make those changes and move in that direction 
without any cessation of our current activities with the budget 
that we have requested.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Senator Bennet, you are next, and then Senator McCain.

              OPENING STATEMENT OF SENATOR BENNET

    Senator Bennet. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being here today, and I 
want to thank you, DHS, and the Centers for Disease Control and 
Prevention (CDC) for your prompt response to the H1N1 virus and 
your cooperation and leadership with local law enforcement. I 
think this has made an enormous difference to the country, and 
I appreciate it very much.
    Secretary Napolitano. Thank you.
    Senator Bennet. I strongly support the increase in funds 
for addressing violence along the border. We must not only make 
sure that the violence does not spill over, but it is also 
important to put an end to the smuggling by drug cartels of 
illicit drugs that are plaguing communities. My State of 
Colorado has been hit very hard by the trafficking and sale of 
methamphetamines. The epidemic has cost the State close to $1.4 
billion, and in spite of the best efforts by local law 
enforcement, we continue to have one of the highest abuse rates 
in the Nation. The largest source of methamphetamine are plants 
run by these cartels, which then traffick the drug through 
their affiliates in Colorado cities and towns.
    Could you say a word about what is being done to curb the 
manufacture of methamphetamines in plants that are just across 
the border? Are there any strategies in place to limit not just 
the ability of cartels to smuggle in massive quantities, but 
also to produce the illicit drugs in the first place?
    Secretary Napolitano. Yes, Senator. One of the key changes 
that has occurred in the last 2 years is that the government of 
Mexico is severely--first it began limiting the importation of 
ephedrine into the country, which is the precursor chemical 
that is used in the manufacture of methamphetamine. Now they 
have totally banned the importation of ephedrine into the 
country of Mexico. We are already seeing an impact on that in 
terms of the Mexican-produced methamphetamine that is there.
    Ironically, an issue we have to confront is ephedrine being 
smuggled from the United States into Mexico, manufactured, and 
then smuggled back. So we are working the methamphetamine issue 
with local and State law enforcement officials from both 
directions in that regard.
    Senator Bennet. So you are saying that the legal 
importation has been stopped, but the illegal--I do not know if 
it is importation or exportation--is still going on?
    Secretary Napolitano. Yes. But the fact that the Mexican 
government itself has banned the importation of ephedrine and 
has law enforcement efforts in that regard now means the 
methamphetamine manufacturers in Mexico can only rely on 
ephedrine that is illegally imported. That is having an impact 
on their production capacity.
    Senator Bennet. Are there other steps the Mexican 
government is taking to disrupt illegal smuggling?
    Secretary Napolitano. I am unaware of whether they have a 
major laboratory issue or whether, like the United States, most 
methamphetamine is being manufactured in home shops all over 
the place, which is a different kind of initiative.
    I will tell you that we continue to have methamphetamine 
brought over the border. It has not been the drug increasing 
the most in the last months since I have been Secretary. What 
we have been seeing is cocaine and a little more heroin. But 
all of them remain a problem, no doubt.
    Senator Bennet. I wanted to also ask you about the efforts 
on immigration that are in your budget. DHS is requesting 
additional appropriations for the naturalization of military 
veterans, asylees, and refugees, as well as money for immigrant 
integration, which includes citizen promotion and learning 
English.
    Combining these priorities with the resources put in place 
to address border violence and your request for additional 
funds for E-Verify, it appears you are beginning to create some 
sort of framework for immigration reform.
    Would you talk a little about how these initiatives are 
coming together to begin to address this severe problem of 
illegal immigration in this country?
    Secretary Napolitano. Well, Senator, what we are working on 
in terms of our budget is a framework that facilitates legal 
immigration under the existing law. You mentioned the 
naturalization of military personnel. We have now naturalized 
over 45,000 members of the military since Operation Iraqi 
Freedom began. That is a very vigorous program for us, and it 
is a great one.
    Facilitate the legal but really help employers comply with 
the law at the worksite, which means having access to something 
like E-Verify, and then continuing smart and effective 
enforcement, which has meant making some changes in terms of 
what we are requesting primarily in the CBP budget.
    Senator Bennet. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Bennet. 
Senator McCain, welcome.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Well, thank you, Mr. Chairman, and welcome 
back, Madam Secretary. To follow up on Senator Bennet's 
comments, I notice you do have a number of increases in funding 
on a broad range of issues concerning immigration, and I am 
certainly glad to see that.
    On the E-Verify issue, what needs to be done to make it 
more effective? I see where you are asking for $112 million. 
What is it that, from a technical standpoint, needs to be 
improved?
    Secretary Napolitano. Senator, what we are doing is 
improving the integrity of the database, the kinds of data 
improved, and the ease with which the data is searched and also 
adding capacity for more and more employers to be on the system 
simultaneously.
    Senator McCain. Would it be a good idea to require Federal 
contractors to use E-Verify?
    Secretary Napolitano. It is certainly something that the 
Administration has under consideration. It was something I did 
at the State level as governor.
    Senator McCain. And probably the pushback by these 
contractors is that we are not able to implement E-Verify. I am 
sure you got that when you were governor.
    Secretary Napolitano. There were issues raised about E-
Verify, which is all the more reason you want to marry those 
proposals together to say, look, we are going to require that 
you use it, but we are going to keep building and improving the 
E-Verify system.
    Senator McCain. Now, you announced that you are going to go 
after employers, probably in more pleasant language than that, 
but basically that is what you are going to do. What do you say 
to the employer that says, look, that person came to me with a 
Social Security card that seemed fine, a birth certificate that 
seemed fine? What is our response to that person as we go after 
employers who have hired someone illegally?
    Secretary Napolitano. Well, the Federal law, Senator, 
requires that if we are going to prosecute an employer, we have 
to prove that he knowingly hired an illegal. And if he has 
relied on a forged document that is a good forgery and he does 
not have a pattern of doing that, has a good I-9 process for 
hiring, uses E-Verify, and is doing everything that he can to 
comply with the law, you are not going to be able to prove to a 
jury that he knowingly violated the immigration law.
    On the other hand, if you do not start these cases with the 
idea of exploring what the employer knew and when he knew it, 
you will never make the case, and the change in emphasis that 
we are undergoing in the Department is to say, in addition to 
the employees who are pretty easy to pick up in a way, you have 
to spend some attention ascertaining whether you actually have 
a provable case against the employer.
    Senator McCain. So it might not be a bad idea, using the 
rationale of a Federal contractor, to start enforcing, at least 
demanding, use of E-Verify.
    Is it true that illegal immigration into the United States 
in general has dropped off and, in particular, across the 
Arizona border?
    Secretary Napolitano. That is true.
    Senator McCain. Do you account for that by better 
enforcement or the economic situation or a combination of both?
    Secretary Napolitano. Probably a combination. That means, 
however, that in this period where we do not have the job 
demand on this side, the economic incentive is not quite as 
large as it was, it is a great time for us to keep on with our 
enforcement efforts and keep building that infrastructure that 
we need.
    Senator McCain. I do not mean to sound parochial, but at 
what point do you think we would have a fence/virtual fence 
across the Arizona-Mexico border? I know that there is a 
virtual fence being constructed in some of the unpopulated 
areas of our border. Do you have any estimate as to when that 
might be completed, both the fence and the virtual fence?
    Secretary Napolitano. I will get back to you on that, 
Senator. We have just okayed the actual implementation of the 
first phase of the virtual fence. As you know, there are a lot 
of problems with the initial construct, etc. Those have been 
worked out. It is now going into place, and we are now 
beginning to schedule the second phase--the first phase down in 
the Tucson sector, the second phase a little to the west of 
there.
    Let me not give you a firm date on the whole thing, but it 
is clearly in process now.
    Senator McCain. Has the Department of Justice agreed to 
cooperate on prosecution of employers that--is this 
``crackdown'' on employers associated with that?
    Secretary Napolitano. The Attorney General and I have had 
several express discussions about the need to follow up and the 
ability to get search warrants and the like from the U.S. 
Attorney's Offices, so yes.
    Senator McCain. Do you have an assessment on the level of 
violence across the border? Is it getting better? Worse? How is 
the Mexican government doing? And what more do we need to do to 
cooperate with them?
    Secretary Napolitano. We are having regular telephone 
conference calls with the sheriffs and police chiefs in the 
border communities themselves, and what they tell me is that 
their levels of violence are pretty good--pretty good in the 
sense of----
    Senator McCain. There is some improvement or decrease?
    Secretary Napolitano. They are decreased. That being said, 
there was some open press today that they are now starting to 
see an uptick in homicides back in Juarez, which had been 
really on a severe downslide after they put the military in 
there. So I am concerned about that.
    We need to do a couple things. One is sustain the 
commitment we have already made along the border. Two is 
complete our agreements with Mexican law enforcement, for 
example, on sharing southbound inspections on the southbound 
lanes. Three is facilitate the Merida Initiative, getting 
resources to the Mexican government.
    Senator McCain. Do you think that this decrease in violence 
is attributed to the effectiveness of the Mexican government 
and our level of cooperation? Or do you think maybe the cartels 
are consolidating power? Or both? Or is it hard to tell at this 
point?
    Secretary Napolitano. I think it is too soon to tell. That 
is why I keep saying we need to sustain what we are doing 
because if what we are doing is only several months, they will 
just wait us out. These cartels have been around for a long 
time. This has to be a long-term initiative of the United 
States.
    Senator McCain. Finally, Mr. Chairman, could I just say 
that I know that Secretary Napolitano met with a number of our 
veterans' representatives and sort of cleared the air on the 
issue of our respect and appreciation for our veterans, and I 
thank you for doing that, Madam Secretary.
    Secretary Napolitano. Thank you, Senator.
    Chairman Lieberman. Thanks for pointing that out, Senator 
McCain. I agree with you. I heard good reports after that 
meeting.
    Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman.
    Madam Secretary, thank you for honoring your commitment to 
come down to the Gulf Coast early in your term and to tour with 
me and others the recovery that is, as you know, well underway, 
and with your help and support, we can move it even faster. So 
thank you.
    I also note in the budget, Mr. Chairman, the continued 
funding--it is very small but significant--for the Office of 
the Federal Coordinator for Gulf Coast Rebuilding through the 
next year. We are hoping that this office can be stepped up to 
be stronger in its coordination with the Federal agencies and 
look to you for your advice as to how to carry that on in the 
future.
    Also, I want to make note in this presentation of the, I 
think, rather significant increase in pre-disaster mitigation 
grants, that it is penny-wise and pound-foolish when we do not 
put money in on the front end to try to avoid the disasters and 
the expense of recovery. So I wanted to note that, and I just 
have three questions.
    Madam Secretary, as you know, we have allocated about $7.5 
billion in the Gulf Coast for FEMA Public Assistance. That is a 
tremendous amount of money. We still have about $3.4 billion 
that has not been spent because we have had a great number of 
difficulties, as the Chairman and Ranking Member can 
understand, between FEMA and local officials disputing the 
value of what the library actually costs to rebuild or the fire 
station or the police station, which slows it down. To expedite 
it, we have tried to--and I have inserted language into the 
Stimulus package on this--set up some sort of independent 
arbitration panel.
    Could you give me an update about your views of that and 
how that could be used not just to help our situation, but how 
it could be used in the future to perhaps expedite some of the 
rebuilding that goes on after a disaster, which Homeland 
Security has some--not all--responsibility toward?
    Secretary Napolitano. Yes, Senator----
    Senator Landrieu. Under FEMA.
    Secretary Napolitano. Yes. First of all, it is a goal of 
the Department to facilitate the long-term recovery and the 
resolution of as many public assistance grants as we can 
without having to use an arbitration panel. And one of the 
things that has happened since my visit to the Gulf Coast is we 
were able to make some decisions on some matters that were 
holding up lots of grants because they had applicability in a 
lot of different factual circumstances. And so by resolving----
    Senator Landrieu. And we appreciate that.
    Secretary Napolitano [continuing]. A few key things, there 
is a lot of movement and working with the people in Louisiana 
to get that money out the door and into the ground where it is 
supposed to be.
    With respect to the arbitration process itself, there will 
be some things that need to be arbitrated. There are just plain 
differences between what we believe FEMA and taxpayers in 
general should be responsible for versus what the claimants 
view, and those need to be arbitrated effectively and 
expeditiously.
    I do not know if the language of the actual arbitration has 
been finalized, but if not, it will be any minute now because 
the lawyers have all had a chance to go at it.
    In my view, one thing that we are now learning from 
Hurricane Katrina is--we have preparation. We have a national 
response framework, which is kind of the immediate response to 
a disaster. But we do not have the equivalent for our recovery 
framework, the more long-term issues that are much more cross-
agency and really are about restoring a community to where it 
was.
    I think that this use of the mechanisms you have now put in 
place to work on this long-term recovery from Hurricane Katrina 
give us an ideal way to test some of these thoughts and build 
into the national recovery framework, that assuming things are 
going well and it makes sense and people feel they have had 
their day in court, in a way, would give us a better situation 
than we now have for long-term recovery issues.
    Senator Landrieu. Well, I appreciate that, and thank you 
very much because that will be very helpful.
    The other recovery issue I am sure that you are familiar 
with is this V-Zone issue.
    Secretary Napolitano. Yes.
    Senator Landrieu. That is affecting Florida, Louisiana, 
Texas, and some of the other coastal States. But the idea is, 
obviously, it makes sense not to rebuild in areas that are low-
lying or subject to flooding. Makes sense. We all agree with 
it.
    The problem is some of these communities, particularly in 
our State--Cameron Parish, South Cameron, that comes to mind, 
Grand Isle--are historic communities, they have been here for 
hundreds of years. They are viable. They are not vacation beach 
places. They are maritime ports for energy, fisheries, and 
commerce.
    How are we making progress--I hope--in coming to some 
resolution on building safely in V-Zones so we can get post 
offices, hospitals, and schools, so we are not asking these 
communities to function without the framework necessary for 
them to function?
    Secretary Napolitano. That is a very complicated question, 
and it has applicability in lots of areas around the country. 
From what I saw, Senator----
    Senator Landrieu. And not just coastal areas. Let me 
correct myself.
    Secretary Napolitano. Right.
    Senator Landrieu. It is many areas throughout the country, 
including riverine areas.
    Secretary Napolitano. That is why viewing it through the 
lens of Hurricane Katrina does not give one the total sense of 
what it is we are talking about, which is what we are now 
trying to put a framework around.
    So let me say first that in the Hurricane Katrina area, 
there were certain projects that were approved. People relied 
on that approval, made investments based on that approval, and 
then several years later, new V-Zone maps came out, and all of 
a sudden FEMA was basically saying, ``Give us our money back.'' 
I think we have now fixed that situation for those areas, or we 
are in the process of fixing that.
    With respect to the larger question, what do we do as a 
country to pay for rebuilding in a now designated high flood 
area? And there we are continuing to work. We will work with 
you, your staff, and the Committee. I do not think we have come 
to a final resolution on that.
    Senator Landrieu. Well, I would just suggest in my 16 
seconds remaining that there are models that we can find in 
other countries, Mr. Chairman--in Japan, which has storm surge 
issues, in the Netherlands, where 60 percent of their country 
lies below sea level--that there are ways to think and engineer 
based on good science and smart sustainability models so you 
can build safely in these areas. You cannot build the regular 
way, but you can build in new ways safely. And we might want to 
look at some of these international models, which is why I am 
proud to be leading a delegation to the Netherlands, with the 
blessing of the Administration, to look at some of these models 
so that we can have good plans and ideas for the future. I 
thank you very much.
    Chairman Lieberman. Thank you, Senator Landrieu. I am glad 
you are going to explore that, and the Committee will await 
your report.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Secretary, how are 
you doing?
    Secretary Napolitano. Good. Thank you.
    Senator Carper. How many years were you governor? Six?
    Secretary Napolitano. A little over 6 years, yes.
    Senator Carper. Six years, 2 months, 7 days, 3 hours.
    Secretary Napolitano. Just about. It was a great job. Loved 
it.
    Senator Carper. That was a great job.
    As governor, you were required to put together and submit 
to your legislature each year an operating budget, a capital 
budget, I presume. In terms of your involvement as a chief 
executive of your State and your involvement as the Secretary 
of this Department, compare and contrast the roles that you 
played in each of them in terms of submitting a budget, 
preparing a budget for this Department? And how is your job in 
this role informed by what you did before?
    Secretary Napolitano. It is incredibly informed because the 
budget is the basic operating document that the governor takes 
to the legislature and works from, and it is where you actually 
see whether statements translate into action.
    I was very involved in the budget process in Arizona as 
governor in terms of drafting the executive budget, going 
through the agency budgets, meeting with the directors, and 
making those recommendations to the legislature. We did not 
have legislative hearings where I was called on to testify on 
the budget when it was submitted. This is a new thing for me.
    Senator Carper. But I presume your cabinet secretaries 
were.
    Secretary Napolitano. Yes, they were. They were the ones 
who went.
    Senator Carper. Did you have an operating and a capital 
budget?
    Secretary Napolitano. No, we did not. They were melded.
    Senator Carper. Kind of like they are here.
    Secretary Napolitano. A little bit, yes.
    Obviously, different issues, different history in terms of 
why certain accounts look the way they do and monies look the 
way they do. When I took office, Senator, I spent a good part 
of my first 2 weeks, I think we booked about 20 hours, just 
doing budget meetings within the components so I could get a 
handle on what was there.
    Senator Carper. Was this right after you were confirmed or 
before?
    Secretary Napolitano. Right after. And then I was able to 
make some changes in the proposal, albeit in a transition year, 
you are really building from a budget that was written by the 
Administration before you as opposed to a totally new budget.
    Senator Carper. But you feel you had an opportunity to put 
your imprint on it?
    Secretary Napolitano. Yes.
    Senator Carper. All right. You have been in office now for 
3 months roughly?
    Secretary Napolitano. One day less than President Obama.
    Senator Carper. In terms of what you know now, in terms of 
priorities, where you need money, where you do not need money, 
is there anything that you have learned that would allow you to 
suggest to us some different allocation, however modest, of 
funding than what we have seen that is presented to us?
    Secretary Napolitano. No. I did mention one item at the 
outset to Senator Lieberman and Senator Collins. They asked me 
about things that were not in the budget to the full extent 
that they possibly were needed, and I talked with them about 
that. But there is one area that is not dramatic, it is not 
bumper sticker-like, but I believe for a new Department it is 
very important, and that is, we need the acquisition, 
procurement, program management infrastructure. We are uniting 
22 different agencies. That part was probably underdone when 
the Department was formed. When you look at the 700 or so 
outstanding GAO issues about the Department, probably half of 
them involved procurement or program management in one form or 
another.
    I believe now is the time, after 6-some-odd years, to begin 
building that administrative skeleton for the Department 
because we now see what we need to have. And so there is money 
in the budget for that, but it is too loosely characterized as 
administrative overhead. What it is really is giving us the 
administrative oomph to run this Department effectively and 
efficiently.
    Senator Carper. I understand some others may have gotten 
into this, but in terms of funding for port security, transit 
security, I understand that just in looking at the numbers, you 
would say, well, they reduced the spending request for 2010 
well below what was appropriated in 2009. But I understand in 
the Recovery Act, there was actually money included that 
basically provides for what is effectively level funding. Is 
that a fair statement?
    Secretary Napolitano. That is correct. The Stimulus bill 
basically acted as a way to speed up the disposition and the 
money, which hopefully will translate into faster jobs.
    Senator Carper. There are a number of Federal programs that 
we fund to support the work of first responders and 
firefighters, and there seems to be a change, just looking at 
the numbers roughly, in the allocation of funding. Would you 
just explain that for me? What have you all done here? And just 
explain to me why it is the right thing to do. And I think you 
have touched on this already, but----
    Secretary Napolitano. Right. Chairman Lieberman was very 
interested in this.
    Senator Carper. I am not surprised.
    Secretary Napolitano. What the budget does is it reduces 
the so-called SAFER grant amount, although there was money in 
the Stimulus bill for SAFER grants--for fire stations, not for 
equipment, as you noted--and then doubles the grant funding for 
the program out of which we actually hire the firefighters 
themselves.
    That was done out of a recognition that the SAFER grants 
had been heavily funded in prior years about 2:1, equipment to 
personnel, and the local governments, which are under really 
bad budget pressures, really wanted money for the actual 
personnel for the next year or two, and that is where they 
wanted us to put our emphasis. And that is what the budget 
does.
    Senator Carper. All right. Thank you.
    With regard to the issue of your space--I understand your 
folks are going to be in the old St. Elizabeths Hospital 
grounds?
    Secretary Napolitano. That is the plan, yes.
    Senator Carper. And when will that likely happen?
    Secretary Napolitano. In 2012, I believe; maybe the Coast 
Guard will be going in as early as the latter part of 2011. And 
in the Stimulus bill, there was included $650 million to speed 
that process along as well.
    Senator Carper. Could you take a moment and explain how 
your Department's budget plan relates, I guess, to non-St. 
Elizabeths consolidation?
    Secretary Napolitano. Right. What we have proposed is some 
millions to allow us to go ahead and consolidate from 35-some-
odd locales within the district to seven or eight right now. I 
think you can appreciate how difficult it is to manage when 
everybody is so spread out all over the place. And we believe 
that we can achieve cost efficiencies and better management by 
doing that now, including moving some of our folks out of one 
or two buildings that are just simply awful places to work and 
in which we should not put employees as a working environment 
while we wait for the St. Elizabeths project to be completed.
    Senator Carper. All right. Fair enough.
    In terms of the requests you have asked for other than to 
support your budget for your Department, what else can we do to 
help you?
    Secretary Napolitano. I have found this Committee very 
helpful, and like I said, I think we have a very good, strong 
relationship, and I have no fear of coming to you when I need 
help on something.
    Senator Carper. Some of your colleagues in the Cabinet are 
finding it difficult to get the Senators to expeditiously act 
on nominations. Is that a concern for you?
    Secretary Napolitano. We do have a few nominations 
pending--Rand Beers, for example, as a potential Under 
Secretary, and a few others that, if we could move them through 
before the Memorial Day recess, it would be helpful. But you 
have been very fair so far in moving nominees forward.
    Senator Carper. All right. Thanks so much. Good luck.
    Secretary Napolitano. Thank you.
    Chairman Lieberman. Thanks, Senator Carper.
    We are going to work hard. As you know, we have tried to 
move the nominations as soon as we can. I know there were some 
questions about Rand Beers, but we will move as quickly as we 
can.
    Senator Carper, in the wonderful way he always begins his 
questioning, asked you how long you had been governor, so I 
feel obliged to ask you how long you were attorney general 
before you were governor.
    Secretary Napolitano. Only one term, 4 years. But I was the 
U.S. Attorney for over 4 years before then.
    Chairman Lieberman. But is it fair to say you enjoyed your 
time as attorney general at least as much as the time you were 
governor?
    Secretary Napolitano. Oh, Senator, it would be so hard to 
distinguish between the two. [Laughter.]
    Senator McCaskill. Let the record show that she rolled her 
eyes. [Laughter.]
    Senator Carper. Mr. Chairman, whenever I talk to governors 
who are thinking of running for the Senate and they ask, ``What 
is it like?'' and I tell them, ``My worst day as Governor of 
Delaware was better than my best day in the U.S. Senate.'' 
[Laughter.]
    That is not true. But whenever I am trying to dissuade 
people from running, that is what I say.
    Chairman Lieberman. I always look forward to the beginning 
of your questioning, which is always very personal.
    Senator Carper. A lot of times people look forward to the 
end of my questioning as well. [Laughter.]
    Chairman Lieberman. Thank you. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman.
    First, let me compliment you, Secretary Napolitano, on the 
new employer enforcement policy that you announced. It was 
incredibly timely. It happened quickly. It is an example of you 
getting it, that we have to put some resources into the 
investigation of those who have knowingly and purposefully 
violated the law continually as it relates to the hiring of 
illegal immigrants. And so I want to compliment you first.
    Second, I do want to be sensitive to the fact that it is 
like you have been there 10 minutes, and you have major 
problems you are trying to solve. So understanding that I do 
not expect you to move a mountain in that 10 minutes, I do want 
to ask you today if you can tell me how many Federal employees 
work in the Department?
    Secretary Napolitano. It is roughly 208,000.
    Senator McCaskill. And can you tell me how many contractors 
work in the Department?
    Secretary Napolitano. I do not have that number right now, 
but I can tell you that we have embarked on work to really 
relook at how many contractors are being used compared to full-
time employees (FTEs) because, as you know, when the Department 
was stood up, it was done so quickly that they really had to 
use contractors to get the mission done.
    We are now beyond that. We really need to be looking at 
what does Congress need to appropriate to the Department to 
carry out all the missions that it needs from an FTE basis.
    Senator McCaskill. Do you have any idea how many 
contractors are there? I mean, even ballpark.
    Secretary Napolitano. I do not even want to ballpark it 
right now. That is how many there are.
    Senator McCaskill. Well, I would like to get a ballpark as 
quickly as we could because we need to have some benchmarks 
here. If we do not figure out what we started with, then I will 
not be able to give you as much credit as you deserve as you 
begin to fix the problem.
    Secretary Napolitano. Fair enough.
    Senator McCaskill. So to the extent that you can run down 
how many are there--it took us, believe it or not, months to 
figure out how many contractors we had in Iraq. Now, there were 
challenges with that also, but this has to be easier than Iraq, 
figuring out how many contractors we have. I am looking forward 
to your giving me a number so we can then continually bug you 
about this.
    In that light, I am curious, as you request things in this 
budget, were you focused on asking for the FTEs you need? I 
think that over the last 8 years, unfortunately, in too many 
cases it was, we do not have to ask for FTEs if we hire 
contractors. It is like the secret growth of government. We do 
not have to own up to the fact that government size has 
exploded because it is all being done through contracts.
    In this budget for the increases you have sought, have you 
sought any increases in contractor personnel? Or have you asked 
for the slots to hire Federal employees to do this work?
    Secretary Napolitano. No, Senator, I think that is a 
project that will be more fully reflected in the fiscal year 
2011 budget request, which will be really the first full year 
budget that I will have had my hand in.
    Senator McCaskill. Let me ask about the acquisition reform. 
I notice that you have done the increases in workforce intern 
program, which is terrific. You have done some selective 
acquisition transaction increases in program management policy. 
I am curious about whether or not you have begun to look at the 
GAO report that came out in November 2008 that cited DHS, and 
the contract procurement officer particularly, for not having 
any kind of performance review goals, as it relates to 
acquisition.
    Are you on it, so to speak?
    Secretary Napolitano. Yes.
    Senator McCaskill. Because I think having those, it is like 
knowing how many there are. If you do not know what you are 
striving for, I think it is really hard, particularly for an 
agency as large as yours, to get there.
    The last thing I want to talk to you about today is about 
your senior career executive attrition. From 2004 to 2007, you 
lost 70 percent of your senior career executives, and according 
to the Partnership for Public Service, there were no exit 
interviews, which is mind-boggling to me that you would watch 
senior career executives walk out the door in those kinds of 
numbers without anybody saying, ``Wait a minute, wait a minute, 
we need to know why you are leaving.''
    Could you share with the Committee what plans you might 
have as it relates to assessing what the problems may be in the 
workplace that would cause that kind of loss of senior career 
people?
    Secretary Napolitano. One of the areas that we really are 
taking a look at is what we can do to create One DHS, as I said 
in my opening statement, a set of career paths within the 
Department, improve morale where morale needs to be improved 
within the Department, and how do we improve the personnel 
practices across the Department. Intake, outtake, exit 
interviews, all of that as part of that process, all of those 
are the kinds of administrative things that were not built into 
the Department in its early days but now need to be put in 
place.
    One of the things I will tell you, Senator, is how overall 
I have been so impressed with the men and women I have met at 
this Department. By and large, they joined it, many of them 
joined right after September 11, 2001, but others have 
continued to come in. This is a very devoted group of Federal 
employees. We want to keep training them. We want to give them 
a career path, and we want to keep them. So that is what we are 
looking to build.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator McCaskill. 
Good line of questioning.
    Senator Akaka, welcome back. You were with us this morning. 
You are with us this afternoon. Lord knows where we will be 
this evening.
    Senator Akaka. Yes. Well, we will see.
    Chairman Lieberman. We will see. But thanks for being here.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman and 
Ranking Member Collins. Good to be back with you. Secretary 
Napolitano, I would like to compliment you on what you have 
been doing and tell you that you look good at this time, even 
after the 100 days.
    Secretary Napolitano. Thank you.
    Senator Akaka. From what I have read, you have been doing 
well. Personally, I am pleased with some of the things that you 
are doing.
    At your confirmation hearing, I urged you to focus on the 
Department's management challenges, and I am pleased to see 
that the President's proposed fiscal year 2010 budget reflects 
greater attention to management. This includes additional 
resources for the Under Secretary for Management's operations, 
which support human capital planning and contract management 
among other tasks, and also increases the funding for the 
Inspector General to enhance oversight efforts. Investments in 
management will, no question, help improve the efficiency and 
effectiveness of the integration of DHS, and I am pleased about 
that.
    With respect to contract management, I want to highlight 
the request for additional funding to recruit and train more 
acquisition personnel and increased funding for the oversight 
arm of the Office of the Chief Procurement Officer. However, 
even with this additional funding, the Department would review 
less than half of major acquisition programs each year.
    Should all major acquisition programs be reviewed annually 
to ensure proper management and combat waste? And if you do 
that, how much annual funding would be necessary for such an 
annual review?
    Secretary Napolitano. Senator, let me follow up with you on 
that, but let me just say that the review process is fairly 
formal and extensive. That is a little different than oversight 
on a day-to-day basis, which obviously you have to do for 
everything the Department is doing. But that is certainly 
something we can get back to you on.
    Senator Akaka. Thank you for that, Secretary Napolitano.
    I would like to discuss the DHS budget request for the 
conversion of many contractor positions back to civil service 
positions. Senator McCaskill also touched on contractors. I 
believe that DHS currently relies--my belief--too heavily on 
contractors and uses them for tasks that should be done by 
government employees. This may have been necessary to help the 
Department start up as it did, but now DHS must develop the 
internal capacity to perform its ongoing programs.
    How is DHS identifying positions for in-sourcing? And how 
many positions does DHS plan to in-source?
    Secretary Napolitano. Senator, I think that is a process 
that we are just beginning to get underway and will probably be 
more fully reflected in the 2011 budget as we have a chance to 
really drill down in these departments and know what has been 
contracted out or not and how many FTEs it would take to bring 
it in-house and the like. But that is something that we have 
put the wheels in motion to really look at that.
    It is not the easiest process in the world, but we need to 
get it started, and we have.
    Senator Akaka. Yes, I am glad you are working on it, and I 
was concerned about how much more it is going to cost if you do 
that.
    In the 2010 budget request, DHS Science and Technology 
university programs would receive over $4 million less than was 
enacted in fiscal year 2009. Among these university programs 
are the DHS Centers of Excellence. These centers allow for 
research into concepts that help improve our homeland security.
    Why has DHS decided to reduce funding levels to these 
centers?
    Secretary Napolitano. Again, that is something I will give 
you more detail on, but I think the thinking was that there was 
unspent money in prior years that could just be pushed forward, 
so that the budget request is really kind of a steady funding 
request. It is not an increase, but it is not really a decrease 
either.
    Senator Akaka. The total funding proposed for Emergency 
Management Performance Grants is $315 million for fiscal year 
2010, the same funding level as the past 2 years. However, 
State emergency managers have said that they need at least $480 
million in funding to meet their needs.
    Why did the Department determine that funding should remain 
flat for this program?
    Secretary Napolitano. Senator, I think our view was, in 
looking at cost to capability and looking at risk, that this 
was a fair and balanced number to request of you at this point 
in time.
    Senator Akaka. Secretary Napolitano, I am pleased that the 
Department is requesting an increase of $60 million for Pre-
Disaster Mitigation Grants. I also see that you proposed 
administering these grants under the Operations, Management, 
and Administration account. Beyond the increase in funding, 
what impact do you expect this transition will have on the 
effectiveness of DHS pre-disaster mitigation efforts?
    Secretary Napolitano. I think, Senator, what I would hope 
to see is--in part because there will be money available, that 
will itself incentivize more thinking at the local level about 
what they should be doing in terms of pre-disaster mitigation, 
which has all kinds of ramifications--zoning decisions and the 
like at the local level. So $60 million spread across a whole 
country, it is a big number outside this room. Inside this 
room, we know it is a small number. But as an incentive number, 
I think it can be very helpful for us.
    Senator Akaka. Thank you very much. Again, I am pleased 
about what you are doing. From your responses, I can tell that 
you are working on some of these important issues, and I wish 
you well.
    Secretary Napolitano. Thank you, sir.
    Senator Akaka. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka.
    Madam Secretary, I think Senator Collins and I have a few 
more questions. I know you have had a long day, but you are 
doing well.
    Secretary Napolitano. We are in there.
    Chairman Lieberman. I must say, I am impressed by your 
ability to respond to the questions in some detail after having 
been on the job for just over 100 days, so I appreciate that.
    Let me take you back to where we were, I believe, the last 
time we met, which was on the H1N1 flu. I will ask you a 
question off the budget and then one on.
    Just generally, it seems to me that both in the media and 
in our lives, we have kind of stepped back from the high 
anxiety, and yet as we read the numbers that come out, the 
confirmed cases are going up. That is certainly happening in 
Connecticut, and it is happening nationally.
    So how would you describe where we are at this point in 
terms of the H1N1 flu? Is it an epidemic? Where are we going 
from here?
    Secretary Napolitano. Yes, Mr. Chairman. We continue to see 
the number of confirmed cases go up. That is partially because 
the CDC has now got diagnosis tests distributed across the 
country, so now it is much easier to do a swab and do a 
confirmed case quickly for this strain of flu than at the 
initiation of the outbreak. So we anticipate we will see 
numbers continue to rise. We anticipate that we will see some 
more deaths out of this flu.
    You are right. The kind of media attention that was going 
on a few weeks ago has dissipated. But I have directed our 
operations center to put forward a plan on what we need to be 
doing over the course of this summer across the Federal 
Government and with State and local school districts and others 
to really think through what our national response is going to 
be if this flu comes back in a more virulent form in the fall. 
And we will be working particularly with the CDC and the 
Secretary of the Department of Health and Human Services (HHS) 
and also with the White House on that.
    But we are kind of relooking at what planning had been done 
before, what lessons we learned over those 2 weeks, and working 
now across all those areas to prepare as much as we can for 
what may happen in the fall.
    Chairman Lieberman. Good. That is reassuring. And I take it 
the folks at CDC and the people with whom they are working are 
still going full force ahead on trying to create a vaccine, 
should we need it.
    Secretary Napolitano. That is correct.
    Chairman Lieberman. The President indicated at one point a 
few weeks ago that he would be asking for $1.5 billion to deal 
with this potential flu outbreak and potential epidemic or 
pandemic. That is obviously not reflected in this budget, but 
do you have any idea about how that money will be divided among 
the agencies?
    Secretary Napolitano. I do not.
    Chairman Lieberman. I have forgotten for the moment whether 
it was requested by the President--it will be part of the 
supplemental?
    Secretary Napolitano. Yes, that is correct.
    Chairman Lieberman. That is what I thought.
    Somewhat related, the budget makes an interesting move, and 
I do not know to what extent you were involved in it. It 
proposes moving all the remaining balances, approximately $1.5 
billion, in the Department of Homeland Security's BioShield 
Special Reserve Fund from DHS to the Department of Health and 
Human Services. This is the fund from which we purchase 
biodefense countermeasures against some of the most troubling 
potential biological agents that the Secretary of the 
Department of Homeland Security has determined could cause a 
public health emergency.
    So this has been a program in which the Department of 
Homeland Security and the Department of Health and Human 
Services have worked together, and I wonder if you could just 
indicate--if you have been involved in this--what is the 
thinking behind this. My concern here is that you are the 
Homeland Security Secretary; this is the Homeland Security 
Department. Obviously, preparing to defend against a potential 
biological weapon is your primary responsibility as compared to 
other departments. I am concerned that in this move of the 
money, DHS may end up playing a lesser role than I think we 
would like it to.
    So tell me what went into the decision and how you feel 
about the continuing role of your Department in biodefense.
    Secretary Napolitano. This was a recommendation that came 
to me that I agreed with, the thinking being that this was 
never a complete move from HHS to DHS to begin with, and there 
was a lot of confusion of roles, that this was really something 
that was a HHS primary level, which is the identification, 
purchase of, distribution of various antivirals or other types 
of medications--which is kind of what they are doing now for 
the H1N1 flu. They will have the lead in making decisions about 
vaccine and distribution of vaccine and the like.
    We retain the lead in making decisions about prevention of 
biological WMD, things to detect weapons of biological WMD and 
the like. This is really the public health side of it. What 
happens if something were to occur? And given that, by and 
large, the medical expertise for that resides within HHS, it 
was my view--and I think supported in both Departments--that 
this was a migration to the Department that would be better 
served migrating back.
    Chairman Lieberman. So are you confident the homeland 
security perspective will be maintained if this BioShield fund 
is no longer at DHS? And are there any understandings you have 
with HHS about how that will happen?
    Secretary Napolitano. We do not have them in writing. We 
certainly have them, and we can confirm them. Obviously, HHS 
understands as well the role that DHS needs to play, and I will 
share with you, H1N1 flu also being an example, we really 
worked hand in glove together on that. I think that model will 
continue.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Last week, the GAO issued a report that raised serious 
concerns regarding the reliability of the GPS network. The 
report is alarming in many ways. GAO said that it is uncertain 
whether the Air Force will be able to acquire new satellites in 
time to maintain current GPS service without interruption. And 
GAO goes on to warn that, if not, some military operations and 
civilian uses would be adversely affected.
    It is ironic that this alarming report by the GAO was 
released the same day that the Administration's budget was 
released, which calls for the elimination of LORAN-C, which is 
the network foundation for eLORAN, the leading proposed back-up 
for GPS.
    The Department of Homeland Security and the Department of 
Transportation established an independent assessment team to 
look at eLORAN and to look at what should be the appropriate 
back-up for the GPS system. And the team found that eLORAN 
could be deployed nationwide with an additional investment of 
$143 million. There has already been about $160 million 
invested in the modernization over the past 10 years.
    It is going to cost approximately $146 million to 
decommission the existing LORAN-C infrastructure, so for 
approximately the same amount of money, you could go to the 
deployment of the eLORAN system and avoid the disruption that 
could occur because we are proceeding without a back-up to GPS. 
And, again, the independent assessment team's recommendations 
were unanimous, and they recommended that the government should 
complete the eLORAN upgrade.
    It does not make sense to me that DHS is recommending the 
decommissioning of the LORAN-C system when the same amount of 
money--in fact, a little less--could be used to get us to the 
upgraded eLORAN system when we know that we need a back-up to 
GPS. Could you explain to me why the Department is proposing to 
terminate this system rather than using the same amount of 
money to invest in the upgraded LORAN system, which is needed 
as a back-up for GPS?
    Secretary Napolitano. Yes, Senator. First, there is uniform 
agreement that LORAN-C, the existing system, is out-of-date, 
antiquated, and not sustainable in its current form. The view 
in the budget itself that was put forward was that the model, 
the paradigm being used of having one back-up system for GPS, 
was not the better way to go, that you needed to have a lot of 
different things that overlap and different kinds of fail-safes 
as opposed to two systems--one being the full back-up for the 
other--because from a prevention and protection standpoint, it 
would be better to have multiple smaller systems as opposed to 
one uniform back-up system, which is what eLORAN is designed to 
be.
    I am happy to have someone from the Coast Guard come give 
you a technical briefing, but that was the recommendation that 
underlay the budget request.
    Senator Collins. But when I talked to the Coast Guard about 
this issue, and I asked the question--What is the back-up going 
to be?--there is not an answer to that. And, in fact, while 
there is agreement that LORAN-C is outmoded, there is also 
unanimous agreement that we need to proceed with the eLORAN 
system, with the notable exception of whoever put together the 
budget at DHS. But if you look at the public comments that were 
taken on this issue, they overwhelmingly point to the value of 
a LORAN-based system that is modernized and upgraded. And, 
again, DHS's own assessment team, which worked with the 
Department of Transportation, was unanimous and unambiguous in 
supporting the transition to eLORAN.
    My concern is that the Administration is really putting the 
cart before the horse here. You are terminating the old system 
before you have a new system in place. And the GAO's report is 
alarming as far as the consequences of not having a back-up to 
GPS given the Air Force's problems in launching satellites, one 
of which is 3 years behind schedule and way over budget.
    Secretary Napolitano. Well, Senator, first of all, I think, 
again, as in so many of these things, there is money to sustain 
things through fiscal year 2010 as we look at the transition. 
But, again, there is disagreement about what really should be 
the replacement there. What I would look forward to doing over 
the next weeks is really working with you and your staff on 
that.
    Senator Collins. I look forward to doing so. I think if you 
look at the independent assessment team's report and the public 
comments, you will not see much disagreement on the direction 
in which we should go.
    Mr. Chairman, I know my time is running out, and let me 
just say that I am going to submit two questions for the 
record. One is on the interagency operations centers that were 
established by the SAFE Port Act. The law, which we wrote, 
requires there to be centers at all the high-priority ports no 
later than October 2009. The Chairman and I both wrote to the 
Budget Committee in support of full funding, which is $60 
million. The Coast Guard has a spend plan which it cannot 
implement because there is no money. How are you going to meet 
the legislative mandate of the SAFE Port Act with regard to the 
centers at high-priority ports when you are zeroing out the 
funding?
    And the second issue that I am going to raise for the 
record has to do with a system called the Transformation and 
Systems Consolidation initiative. Basically, it is to bring 
together all the financial systems of all the components of the 
Department so that they are operating on common platforms using 
commercially available software. The Department has gone down 
this road before with the eMERGE-2 project, which spent $52 
million and then was canceled. This is an example of a failed 
IT project. And I am concerned that the Department has 
committed itself to entering into a contract for this new 
system and did so before the Acquisition Review Board completed 
its review.
    I am very concerned that we are going down the road of yet 
another expensive failed IT project. So I am going to submit 
that to the record as well.
    Secretary Napolitano. Good.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Madam Secretary, I was looking for the costs that would 
have been reflected in the budget, and let me explain what my 
question is on that. The fiscal year 2010 budget places the 
Federal Protection Service (FPS) under the National Protection 
and Programs Directorate (NPPD). NPPD seems like a logical fit 
for FPS because both are focused on infrastructure protection. 
I understand that FPS currently relies on Immigration and 
Customs Enforcement (ICE) for things like contract guard 
payment services.
    How much has the Department budgeted for transition costs 
of moving FPS from ICE to NPPD? Where are these costs reflected 
in the budget?
    Secretary Napolitano. There is a transition budget. I do 
not know where the line item is precisely, but we will get that 
to you, Senator. Let me just say that I did not really look at 
a wholesale reorganization of this Department. It has suffered 
from reorganization fatigue. Nonetheless, this particular issue 
caught my attention because there were just a lot of comments 
inside the Department and outside the Department: Was FPS 
really in the best place given its mission? And also whether 
the administration of FPS was distracting ICE from its central 
mission, which is the enforcement of the Nation's immigration 
and customs laws.
    And so we did make the decision to make this one move, and 
yes, there are some transition costs. I think we can absorb 
many of them. We have a team in place now that is working 
directly on the transition in hopes that Congress agrees with 
us that this is a better place for FPS.
    Senator Akaka. Madam Secretary, FPS has requested a new 
offsetting collection authority, which would allow FPS to 
determine appropriate staffing levels instead of mandating 
staffing numbers in statute. However, GAO has identified a 
number of personnel challenges within FPS, including 
understaffing and poor human capital planning.
    Congress determined that minimum staffing levels were 
necessary to address security risks created by President Bush's 
plan to continue downsizing FPS.
    What has FPS done to address its human capital planning 
needs? Can you assure us that FPS will not be understaffed if 
it were to eliminate the staffing floor?
    Secretary Napolitano. Yes, I think not only that, but I 
think I can tell you that with a focus on FPS--which is not the 
highest-profile part of the Department, and part of this is 
just the process of creating One DHS and really uniting things, 
but looking at mission as well--we will maintain it at 
appropriate levels for the many facilities that it is charged 
with protecting.
    Senator Akaka. As you may know, I am concerned about the 
diversity of the DHS workforce, in particular, in the Senior 
Executive Service. A diverse workforce, of course, can enhance 
the Department's performance by bringing a greater variety of 
perspectives and approaches to policy development. I am pleased 
to see that the Office of the Chief Human Capital Officer has 
requested funding for a human resource specialist to focus on 
enhancing diversity.
    What do you envision the roles and responsibilities of this 
position to be? And how will you ensure that all DHS components 
work with the specialist to increase diversity?
    Secretary Napolitano. Well, one key area we want to focus 
on is how we are recruiting and outreach on recruitment; how we 
let people know that there are good jobs within the Department, 
as opposed to relying on the standard places where we attract 
recruits. And then we also, as I mentioned to Senator 
McCaskill, need to have career paths and a real retention plan 
for our very good employees.
    Senator Akaka. In 2008 and 2009, the Government 
Accountability Office reported that the Domestic Nuclear 
Detection Office (DNDO) is operating without up-to-date 
strategic plans for its critical investments in nuclear 
detection technologies at our borders or for its overarching 
nuclear detection efforts.
    What is the status of your nuclear detection strategic 
plans? How will you ensure that funds requested for DNDO will 
be spent effectively without up-to-date strategic plans?
    Secretary Napolitano. Well, we have obviously a strategic 
plan always underway, particularly in that very important area. 
But you might be interested in knowing, Senator, that we did 
not request funds for DNDO to purchase new technology this 
year, and the reason is because we were not persuaded that the 
technology--neither the plan but particularly the capacity of 
the technology--we needed was actually there that we wanted new 
money for. We have enough back-funded money to continue current 
operations through fiscal year 2010, but before we come to 
Congress and ask for money for new technology, we needed to see 
something better from the science community and from the 
vendors for what we need.
    So we have gone back into that community on that basis, and 
it is my hope that moving forward, working with this Committee, 
we will have some credibility when we actually come forward and 
say we need this for this new thing, that we do not do that 
lightly, that we actually have a solid basis for that.
    Senator Akaka. Well, I want to thank you very much for your 
responses. Again, you seem to be on the right course in what 
you are doing, and I want to wish you well.
    Secretary Napolitano. Thank you, Senator.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Akaka.
    Madam Secretary, we thank you for your responsiveness. It 
has been a good exchange. The Committee is intent on doing an 
authorization bill for the Department this year, and we will 
see how the timing goes.
    In the normal course, we have usually sent a communication 
and had verbal communication with our colleagues on the 
Subcommittee on Homeland Security of the Senate Committee on 
Appropriations. So I expect that we will do the same.
    Without objection, I am going to leave the record open for 
15 days just to allow you that time to answer Senator Collins' 
two questions, and any others.
    Secretary Napolitano. I look forward to that.
    Chairman Lieberman. Do you have any final comments you 
would like to make?
    Secretary Napolitano. No. Thank you to the Committee for 
the hearing. I appreciate your adjusting the schedule since I 
had several hearings today and tomorrow on the budget, so I 
appreciate that courtesy as well.
    Chairman Lieberman. Understood. Senator Collins.
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 5:45 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
